      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Washington, D.C. 20201




August 10, 2010

TO:            Yvette Roubideaux, M.D., M.P.H.
               Director
               Indian Health Service


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Audit of the Indian Health Service Fiscal Year 2005 Cost Statement for the
               Oklahoma City Area Office (A-06-07-00080)


The attached final report provides the results of our review of the Indian Health Service cost
statement for fiscal year 2005 for the Oklahoma City area office.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-06-07-00080 in all correspondence.


Attachment

cc:
Donald Berwick, M.D.
Administrator
Centers for Medicare & Medicaid Services
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




AUDIT OF THE INDIAN HEALTH
 SERVICE FISCAL YEAR 2005
 COST STATEMENT FOR THE
OKLAHOMA CITY AREA OFFICE




                      Daniel R. Levinson
                       Inspector General

                         August 2010
                        A-06-07-00080
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Indian Health Service (IHS), an agency in the U.S. Department of Health & Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 600 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization. IHS Headquarters (Headquarters) has overall responsibility for IHS programs, and
12 area offices located throughout the United States ensure that individual areas’ health care
needs are met.

Section 1880 of the Social Security Act (the Act) authorizes Medicare reimbursement to IHS
hospitals and skilled nursing facilities. Section 1911 of the Act authorizes Medicaid
reimbursement to all IHS providers for covered services. IHS providers use all-inclusive
reimbursement rates to bill for certain Medicare and Medicaid services provided in IHS and
tribal facilities. IHS develops these rates annually using financial and patient data from IHS and
certain tribal hospitals. The financial data are obtained from the hospitals’ Medicare cost reports,
and the patient data are obtained from IHS’s patient workload systems.

IHS contracts with Eighteen Nineteen Group, Inc. (Eighteen Nineteen), to prepare separate
Medicare cost statements for Headquarters and most of the area offices. (IHS cost statements
use obligations rather than costs because, according to IHS officials, IHS’s accounting system
was not designed to accumulate costs.) The Headquarters and area office cost statements
identify the portion of obligations from Headquarters and the area offices that is allowable under
Medicare and allocable to IHS providers. Allowable Headquarters obligations are allocated to
each area office. These obligations, combined with the area offices’ own obligations, are then
allocated among all IHS providers. Medicare cost statements are subject to the provisions of 42
CFR part 413 and the Medicare Provider Reimbursement Manual, parts I and II, which establish
standards for, among other things, the allowability and allocability of costs.

IHS included approximately $130.5 million of obligations in its fiscal year (FY) 2005 cost
statement for the Oklahoma City area office. Our audit covered approximately $14.7 million of
obligations that IHS reported in the cost statement as allocable to IHS providers.

OBJECTIVE

Our objective was to determine whether the selected obligations reported in the FY 2005 cost
statement for the Oklahoma City area office were allowable under Medicare requirements.

SUMMARY OF FINDINGS

Of the $14,700,364 in obligations that was reported in the FY 2005 cost statement for the
Oklahoma City area office that we reviewed, $14,010,472 was allowable. The remaining
$689,892 in obligations that we reviewed consisted of $260,000 in unallowable obligations and




                                                 i
$429,892 in obligations that we have set aside: $285,889 in salaries and fringe benefits for two
employees that was not properly allocated and $144,003 in unsupported depreciation costs.

Contrary to Federal requirements, IHS overstated its FY 2005 cost statement by $260,000
because it reported duplicate obligations of the National Supply Service Center (which manages
the purchase and distribution of drugs and other medical supplies in all 12 IHS areas). This error
occurred because IHS did not adequately oversee Eighteen Nineteen’s cost statement
preparation, specifically by not reviewing accounting entries made during the process.

For the $429,892 in obligations on which we express no opinion:

   •   Contrary to Federal requirements, IHS did not properly allocate two employees’ salaries
       and fringe benefits. One employee estimated he spent time working on issues related to
       four area offices. The cost statement for one of the area offices was finalized before an
       adjustment could be made to add his salary and fringe benefits to that cost statement.
       Therefore, those costs remained on the Oklahoma City area office’s cost statement. A
       portion of the second employee’s salary and fringe benefits, also based on estimates,
       should have been allocated to a health facility where he provided direct services.
       Because IHS did not have verifiable support for the amount of time the employees
       worked at the other locations, we were unable to determine what portion of the $285,889
       in salary and fringe benefits should have been included in the cost statement. IHS did not
       have policies and procedures to ensure that salaries and fringe benefits of employees
       working in other locations were allocated in a timely manner to the facilities based on
       information that was current, accurate, and in sufficient detail.

   •   Contrary to Federal requirements, IHS calculated depreciation using a depreciation
       schedule that did not include acquisition dates or accumulated depreciation amounts for
       513 of 857 equipment items. As a result, we could not determine what portion of the
       $144,003 in depreciation costs claimed was allowable. IHS did not have adequate
       policies and procedures to ensure that depreciation was adequately supported by its
       accounting records.

The remaining $14,010,472 of the $14,700,364 in obligations that we reviewed was allowable.

RECOMMENDATIONS

We recommend that IHS:

   •   adjust its next cost statement for the Oklahoma City area office to correct the $260,000 of
       unallowable costs that was reported in the FY 2005 cost statement;

   •   improve its oversight of Eighteen Nineteen’s cost statement preparation by reviewing
       accounting entries made during the process;

   •   work with the Centers for Medicare & Medicaid Services (CMS) to determine how much
       of the $285,889 in salaries and fringe benefits reported in the Oklahoma City area


                                                ii
       office’s FY 2005 cost statement was allocable and adjust its next cost statement for
       obligations determined to be unallocable;

   •   develop and implement policies and procedures to ensure that obligations are allocated in
       a timely manner to each area or facility receiving the benefit of the services provided and
       that such obligations are supported with cost information that is current, accurate, and in
       sufficient detail;

   •   work with CMS to determine how much of the $144,003 of depreciation costs reported in
       the Oklahoma City area office’s FY 2005 cost statement was allowable and adjust its next
       cost statement for depreciation determined to be unallowable;

   •   review the Oklahoma City area office’s cost statements after FY 2005 and adjust its next
       cost statement for unallowable depreciation costs that were reported; and

   •   develop and implement policies and procedures to ensure that depreciation records
       contain the necessary information to properly support depreciation costs.

INDIAN HEALTH SERVICE COMMENTS

In written comments on our draft report, IHS concurred with all of our findings and described
corrective actions it has implemented or plans to implement.

Regarding the recommendation to work with CMS on the allocable salary amount, IHS indicated
that after it filed the FY 2005 cost statement, it began preparing signed time estimates to support
the allocation of employee/contractor salaries. IHS believes that this subsequent information
supports the amounts allocated to the FY 2005 cost statement and that further discussion with
CMS is not necessary. IHS also indicated that a review of depreciation costs before FY 2005
was not cost-justified. IHS’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to recommend that IHS work with CMS to resolve the $285,889 for unsupported
salaries and fringe benefits reported in the FY 2005 cost statement. After considering IHS’s
comments that performing reviews of depreciation costs before FY 2005 was not cost-justified,
we changed the recommendation in the final report.




                                                iii
                                                   TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Indian Health Service ...........................................................................................1
              Medicare and Medicaid Reimbursement .............................................................1
              Cost Statements for Headquarters and Area Offices ...........................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          DUPLICATE OBLIGATIONS ADDED TO THE AREA OFFICE
           COST STATEMENT.....................................................................................................4

          ALLOCATION OF SALARIES AND FRINGE BENEFITS .........................................4

          DEPRECIATION NOT SUPPORTED ...........................................................................5

          RECOMMENDATIONS .................................................................................................6

          INDIAN HEALTH SERVICE COMMENTS .................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................7

APPENDIX

          INDIAN HEALTH SERVICE COMMENTS




                                                                    iv
                                              INTRODUCTION

BACKGROUND

Indian Health Service

The Indian Health Service (IHS), an agency in the U.S. Department of Health & Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 600 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization.

IHS Headquarters (Headquarters) has overall responsibility for IHS programs. Twelve area
offices located throughout the United States carry out the IHS mission by overseeing and
administering programs that are designed to address individual areas’ specific health care needs.
Each area office provides regional support services to health care providers (e.g., hospitals,
outpatient clinics, and community health centers) within its jurisdiction.

One of the twelve area offices is the Oklahoma City, Oklahoma, area office. This area office
oversees the delivery of health care to more than 300,000 American Indians in Oklahoma,
Kansas, and a portion of Texas. This area also includes the National Supply Service Center
(NSSC). NSSC manages the purchase and distribution of drugs and other medical supplies to
health care facilities in all 12 IHS areas.

Medicare and Medicaid Reimbursement

IHS health care facilities receive Federal reimbursement for certain Medicare and Medicaid
services. At the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers
the Medicare and Medicaid programs. The Indian Health Care Improvement Act (IHCIA) of
1976 (P.L. No. 94-437) added section 1880 of the Social Security Act (the Act) to authorize
reimbursement to IHS hospitals and skilled nursing facilities for services provided to Medicare-
eligible individuals. Further, section 432 of the Medicare, Medicaid, and SCHIP [State
Children’s Health Insurance Program 1] Benefits Improvement and Protection Act of 2000
(P.L. No. 106-554) and section 630 of the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003 (P.L. No. 108-173) amended section 1880 of the Act to authorize
payments for Medicare Part B services provided in certain IHS hospitals. The IHCIA also added
section 1911 of the Act to authorize Medicaid reimbursement to all IHS providers for covered
services.

IHS providers use all-inclusive reimbursement rates to bill for certain Medicare and Medicaid
services provided in IHS and tribal facilities. IHS develops these rates annually using financial
and patient data from IHS and certain tribal hospitals. The financial data are obtained from the
hospitals’ Medicare cost reports, and the patient data are obtained from IHS’s patient workload
systems.


1
    The program was renamed the Children’s Health Insurance Program as of February 4, 2009.

                                                         1
IHS calculates one set of reimbursement rates for the lower 48 States and one set of rates for
Alaska: 2

    •    Medicare outpatient per-visit rate,

    •    Medicare Part B inpatient ancillary per diem rate,

    •    inpatient hospital per diem rate (excluding physician/practitioner services), and

    •    outpatient per-visit rate (excluding Medicare). 3

Cost Statements for Headquarters and Area Offices

IHS contracts with Eighteen Nineteen Group, Inc. (Eighteen Nineteen), to prepare separate cost
statements for Headquarters and 10 of the 12 area offices, including the Oklahoma City area
office. 4 IHS cost statements use obligations rather than costs because, according to IHS
officials, IHS’s accounting system was not designed to accumulate costs. CMS and IHS agreed
that IHS could use obligations instead of costs when preparing its cost statements.

The Headquarters and area office cost statements identify the portion of obligations from
Headquarters and the area offices that is allowable under Medicare and allocable to IHS
providers. Allowable Headquarters obligations are allocated to the 12 area offices. These
obligations, combined with the area offices’ own obligations, are then allocated among all IHS
providers. Headquarters and area office obligations that are allocated to IHS hospitals are
included in each hospital’s cost report. Errors in these cost reports can affect the calculation of
the all-inclusive reimbursement rates described above.

Medicare cost statements are subject to the provisions of 42 CFR part 413 and the Medicare
Provider Reimbursement Manual (the Manual), parts I and II, which establish standards for,
among other things, the allowability and allocability of costs.

IHS included approximately $130.5 million of obligations in its FY 2005 cost statement for the
Oklahoma City area office.

We reviewed the FY 2005 cost statement for the Oklahoma City area office, the subject of this
audit. Separate reports will address the FY 2005 cost statements for Headquarters



2
 The all-inclusive reimbursement rates developed by IHS using the fiscal year (FY) 2005 Medicare cost reports
were finalized and used for reimbursement purposes in FY 2007.
3
 The inpatient hospital per diem and the outpatient per-visit rates are the encounter rates applicable to Medicaid
services.
4
  Cost statements are not prepared for the California and Portland area offices because the areas for which they are
responsible do not have any IHS hospitals.


                                                          2
(A-09-07-00054), the Phoenix area office (A-09-07-00086), and the Navajo area office
(A-07-08-02721).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the selected obligations reported in the FY 2005 cost
statement for the Oklahoma City area office were allowable under Medicare requirements.

Scope

IHS included approximately $130.5 million of obligations in its FY 2005 cost statement for the
Oklahoma City area office. Our audit covered approximately $14.7 million of obligations that
IHS reported in the cost statement as allocable to IHS providers in the Oklahoma City area and
to other areas.

We did not perform a detailed review of IHS’s internal controls. We limited our review to
obtaining an understanding of IHS’s (including the Oklahoma City area office’s) and
Eighteen Nineteen’s policies and procedures related to the accounting, accumulation, and
reporting of obligations.

We performed our fieldwork at the Oklahoma City area office in Oklahoma City, Oklahoma.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    reviewed the explanatory notes for the cost statement;

   •    reviewed IHS’s reclassifications and adjustments of obligations, including salaries, fringe
        benefits, and related obligations;

   •    reviewed a judgmental sample of obligations, including depreciation, supplies, and travel;

   •    reviewed the method that IHS used to allocate the Oklahoma City area office’s
        obligations to IHS providers in the Oklahoma City area and to other areas; and

   •    interviewed officials from the Oklahoma City area office and Eighteen Nineteen.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


                                                 3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Of the $14,700,364 in obligations that was reported in the FY 2005 cost statement for the
Oklahoma City area office that we reviewed, $14,010,472 was allowable. The remaining
$689,892 in obligations that we reviewed consisted of $260,000 in unallowable obligations and
$429,892 in obligations that we have set aside: $285,889 in salaries and fringe benefits that were
not properly allocated and $144,003 in unsupported depreciation costs.

DUPLICATE OBLIGATIONS ADDED TO THE AREA OFFICE COST STATEMENT

Federal regulations (42 CFR § 413.24(a)) state: “Providers receiving payment on the basis of
reimbursable cost must provide adequate cost data. This must be based on their financial and
statistical records which must be capable of verification by qualified auditors.”

Federal requirements (the Manual, part I, section 2304) state: “Cost information as developed by
the provider must be current, accurate, and in sufficient detail to support payments made for
services rendered to beneficiaries.”

IHS overstated its FY 2005 cost statement by $260,000 because it reported duplicate NSSC
obligations. This error occurred because IHS did not adequately oversee Eighteen Nineteen’s
cost statement preparation. Specifically, it did not review accounting entries made during
preparation of the cost statement.

ALLOCATION OF SALARIES AND FRINGE BENEFITS

Federal regulations state that the cost principles were developed to ensure that costs are reported
according to actual use of services. The regulations (42 CFR § 413.5(a)) state: “[T]he share of
the total institutional cost that is borne by the [Medicare] program is related to the care furnished
beneficiaries so that no part of their cost would need to be borne by other patients. Conversely,
costs attributable to other patients of the institution are not to be borne by the program.”

Federal regulations (42 CFR § 413.5(b)(3)) also explain that one objective of the principles of
reimbursement is “[t]hat there be a division of the allowable costs between the beneficiaries of
this program [Medicare] and the other patients of the provider that takes account of the actual use
of services by the beneficiaries of this program and that is fair to each provider individually.”

CMS reiterated this principle in section 2200.1 of part I of the Manual: “Principle of Cost
Apportionment—Total allowable costs of a provider are apportioned between [Medicare]
program beneficiaries and other patients so that the share borne by the program is based upon
actual services received by program beneficiaries.”

Furthermore, Federal regulations (42 CFR § 413.24(a)) state: “Providers receiving payment on
the basis of reimbursable cost must provide adequate cost data. This must be based on their

                                                  4
financial and statistical records which must be capable of verification by qualified auditors.” In
addition, 42 CFR § 413.24(c) states: “The requirement of adequacy of data implies that the data
be accurate and in sufficient detail to accomplish the purposes for which it is intended.”

The Manual, part I, section 2304, states that cost information as developed by the provider must
be current, accurate, and in sufficient detail to support payments made for services provided to
beneficiaries.

Contrary to Federal regulations and the Manual, IHS did not properly allocate $285,889 for two
employees’ salaries and fringe benefits that were reported in the Oklahoma City area office cost
statement. Specifically:

   •   IHS reported salary and fringe benefits for an employee in the Equal Employment
       Opportunity department who estimated he spent time working on issues related to four
       area offices as follows: 50 percent for the Navajo area office, 30 percent for the
       Oklahoma City area office, 15 percent for the Albuquerque area office, and 5 percent for
       the Nashville area office. The employee did not have verifiable records to support these
       estimates. Additionally the cost statement for the Navajo area office was finalized before
       an adjustment could be made to add his salary and fringe benefits to that cost statement.
       Therefore, the Navajo portion of this employee’s salary and benefits remained on the
       Oklahoma City area office’s cost statement. Because IHS did not have verifiable support
       for the amount of time this employee worked at other locations, we were unable to
       determine what portion of the $113,951 in total salary and fringe benefits for the
       employee should be included in the cost statement.

   •   IHS reported salary and fringe benefits for an employee in the Division of Dental
       Services who provided direct services at a health facility. IHS did not allocate part of the
       employee’s salary and fringe benefit costs to the health facility. The employee estimated
       he worked 14 days at the facility but stated that the dates might not have been
       all-inclusive or exact. Because IHS did not have verifiable support for the amount of
       time this employee worked at the facility, we were unable to determine what portion of
       the $171,938 in salary and fringe benefits should have been included in the cost
       statement.

IHS did not have policies and procedures to ensure that salaries and fringe benefits of employees
working in other locations were allocated in a timely manner to the facilities based on
information that was current, accurate, and in sufficient detail.

DEPRECIATION NOT SUPPORTED

Federal regulations (42 CFR § 413.20) require that “providers maintain sufficient financial
records and statistical data for proper determination of costs” and that cost statements be
submitted “on an annual basis with reporting periods based on the provider’s accounting year.”
CMS reiterated these requirements in the Manual. The Manual, part I, section 2304, states that
cost information as developed by the provider must be current, accurate, and in sufficient detail
to support payments made for services provided to beneficiaries. In addition, part II, section

                                                5
102, states: “For cost reporting purposes, Medicare requires submission of annual reports
covering a 12-month period of operations based upon the provider’s accounting year.”

Federal regulations (42 CFR § 413.134(a)) also state that depreciation on equipment used in the
provision of patient care is an allowable cost. Among other requirements, the depreciation must
be based on the historical cost of the asset and prorated over the estimated useful life of the asset.

The Manual, part 1, section 104.9, states that depreciation must be adequately supported by the
provider’s accounting records and that the depreciation records must include the assets’ historical
costs, dates of acquisition, estimated useful lives, accumulated depreciation, and other
information.

The depreciation schedule IHS used to calculate depreciation was incomplete. Specifically, the
schedule did not contain the acquisition dates or accumulated depreciation amounts for 513 of
the 857 equipment items. Without data showing the acquisition dates of equipment or the
amount of depreciation previously claimed, we could not determine whether the items were
depreciated correctly. As a result, we could not determine what portion of the $144,003 in
depreciation costs claimed for these 513 items was allowable. This deficiency occurred because
IHS did not have adequate policies and procedures to ensure that depreciation was adequately
supported by its accounting records.

RECOMMENDATIONS

We recommend that IHS:

   •   adjust its next cost statement for the Oklahoma City area office to correct the $260,000 of
       unallowable costs that was reported in the FY 2005 cost statement;

   •   improve its oversight of Eighteen Nineteen’s cost statement preparation by reviewing
       accounting entries made during the process;

   •   work with CMS to determine how much of the $285,889 in salaries and fringe benefits
       reported in the Oklahoma City area office’s FY 2005 cost statement was allocable and
       adjust its next cost statement for obligations determined to be unallocable;

   •   develop and implement policies and procedures to ensure that obligations are allocated in
       a timely manner to each area or facility receiving the benefit of the services provided and
       that such obligations are supported with cost information that is current, accurate, and in
       sufficient detail;

   •   work with CMS to determine how much of the $144,003 of depreciation costs reported in
       the Oklahoma City area office’s FY 2005 cost statement was allowable and adjust its next
       cost statement for depreciation determined to be unallowable;

   •   review the Oklahoma City area office’s cost statements after FY 2005 and adjust its next
       cost statement for unallowable depreciation costs that were reported; and

                                                  6
   •   develop and implement policies and procedures to ensure that depreciation records
       contain the necessary information to properly support depreciation costs.

INDIAN HEALTH SERVICE COMMENTS

In written comments on our draft report, IHS concurred with all of our findings and described
corrective actions it has implemented or plans to implement.

Regarding the recommendation to work with CMS on the allocable salary amount, IHS indicated
that after it filed the FY 2005 cost statement, it began preparing signed time estimates to support
the allocation of employee/contractor salaries. IHS believes that this subsequent information
supports the amounts allocated to the FY 2005 cost statement and that further discussion with
CMS is not necessary.

IHS also indicated that a review of depreciation costs before FY 2005 was not cost-justified
because it represented less than 1 percent of the total area office costs. IHS’s comments appear
in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to recommend that IHS work with CMS to resolve the $285,889 for unsupported
salaries and fringe benefits reported in the FY 2005 cost statement. After considering IHS’s
comments that performing reviews of depreciation costs before FY 2005 was not cost-justified,
we changed the recommendation in the final report.




                                                 7
APPENDIX
                                                                                           Page I of3


        APPENDIX: INDIAN HEALTH SERVICE COMMENTS



   DEPARTMENT OF HEALTH &. HUMAN SERVICES                                        Public Health Service


                                                                                 Indian Health SeMee
                                          JUN 1 8 2010                           AockWie 1.10 20852




TO: 	           Inspector General

FRO M: 	        Director

SUBJECT: 	      Response to the Ol1icc or lnsp!.'CtuTGeneral"s "Audit of the Indian Health Service
                Fiscal Year 20QS Cost Statement for the Oklahuma City Area Office (A-06-07­
               000,.)"


The purpose orlhis I1lcmornndum is 10 respond to your May 7, 2010, memorandum transmiuing
the Office of Inspector General (OIG) drafi report providing the results orthe O IG "Audit or tile
Indian I lealth Sl;:l"vicc Fiscal Year 2005 COSI Statement for the Oklahoma C ity Area Ollice (A­
06.07-00080)." I appreciate the opportunity 10 Itddrcss your rccommcml !.ttion~.

DIG nccommcmllltions:

(1) Adjus t nCII cos t statement (or the Oklahoma City a rea office to correct the $260,000 of
unallowable. costs that was reported in th(' I"V 20U5 cost s t.atcme nt.

IH S ReslJOnse: 

We agree. 1m.: II-IS will include a correction for the $260,000 Supply eeOler error when it 

submits the FY 20 10 Medicare cost statement for the Oklahoma City Area Office. 


(2) Improve (""e.-sight uf Eighteen Ni ncteen'N cost statement preparatiun by rcviewillg
;Iccuunting enfries nHlde during the pr(!ce.~ s.

II-IS Resilonse:
We will improve oversight orlhc Oklahoma City Area OtTiee cost statement preparation. The
II-IS sends copies of cost state ments to each site prepllrint; them and rev iews the cost statements
with Area personnel d uring subSt:quent sile visits. These reviews can reveal methodology or
typographical errors. During meetings throughouI the yea r with Area financial staff, wc will
cmplmsi"-c lhe imponance of such reviews.

We do wish to note, however, that due 10 the (.:omplexity of tnc cosl allocation process, in which
allowable Il lS headquancrs ohligmions arc tlllocated to the Area offices. it is not lea~ibk for IHS
personnel to review each entry made hy Ihc Med icare contractor hired to supply COSt stmcment
expert ise. T he Il lS has requcsted that the Medicare r.:onlmctor pcrfonn additional review of
accounti ng workpapcr fo rm ulas to dL'{.:rcaSt'l the incidence of typogmp hi r.:a l-typc erl'Ors.
                                                                                     Page 2 of3




Page 2 - Inspector General


(3) Work with CMS to determine how much of the $285,889 in salaries and fringe benefits
reported in the Oklahoma City Area Office's FY 2005 cost statement was allocable and
adjust its next cost statement for obligations determined to be unallocable.

IHS Response:
We agree. Since the Oklahoma City Area Office FY 2005 cost statement was filed, IRS cost
statement work papers and back-up data include signed time estimates to support allocation of
employee/contractor salaries. The subsequent cost statement work papers and back-up data
support the amounts allocated on the FY 2005 report as reasonable, and as result, further
discussion with CMS does not appear to be necessary.

(4) Develop and implement policies and procedures to ensure that obligations are allocated
in a timely manner to each area or facility receiving the benefit of the services provided and
to ensure that such obligations are supported with cost information that is current,
accurate, and in sufficient detail.

IHS Response: 

We agree. Since the Oklahoma City Area Office FY 2005 cost statement was filed, the home 

office cost statements have been filed timely using improved methods to ensure proper allocation 

costs to Area office and facility cost statements. 


(5) Work with CMS to determine how much of the $144,003 of depreciation costs reported
in the Oklahoma City area office's FY 2005 cost statement was allowable and adjust its
next cost statement for depreciation determined to be unallowable.

IHS Response:
We agree. In FY 2007, the IRS reviewed the calculation of equipment depreciation using
schedules that included all data elements necessary for tracking depreciation expense, and made
corrections for FY 2005 and FY 2006 on the FY 2007 Oklahoma City Area Office cost
statement. In view of the improved process and adjustments made, further discussion with CMS
does not appear necessary.

(6) Review the Oklahoma City area office's cost statements before and after FY 2005 and
adjust its next cost statement for unallowable depreciation costs that were reported.

IHS Response:
We agree. With the FY 2007 Oklahoma City Area Office cost statement, the IRS has already
corrected the FY 2005 error as well as the FY 2006 depreciation amount. Based on the total
amount of errors corrected on FY 2007 workpaper 6-4-3 ($161,809 and $142,874 for FY 2005
and FY 2006 respectively), a review of depreciation for periods prior to FY 2005 does not appear
to be cost-justified. We note that the amount in error for FY 2005 is only 0.13 percent of the
$123,344,411 Area Office total costs, of which only a portion is allocated to allowable costs.
                                                                                    Page 3 of3




Page 3 - Inspector General


(7) Develop and implement policies and procedures to ensure that depreciation records
contain the necessary information to properly support depreciation costs.

IHS Response:
We agree. Since the Oklahoma City Area Office FY 2005 cost statement was filed, the IHS has
improved the process for calculating depreciation expenses. This process now includes creating
and maintaining schedules that include all of the data elements necessary for tracking
depreciation expense.

Thank you for the opportunity to provide comments on OIG draft report "Audit of the Indian
Health Service Fiscal Year 2005 Cost Statement for the Oklahoma City Area Office" (A-06-07­
00080). If you have any questions concerning this response, please contact Mr. Michael D.
Weahkee, Director of the Management Policy and Internal Control Staff, in the Office of
Management Services, IHS, at (301) 443-2650.




                                                Yvette Roubideaux, M.D., M.P.H.
